<html>
<title> - NOMINATIONS OF WALTER M. SHAUB JR., KIMBERLEY S. KNOWLES, AND RAINEY R. BRANDT</title>
<body><pre>[Senate Hearing 112-565]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-565

 
NOMINATIONS OF WALTER M. SHAUB JR., KIMBERLEY S. KNOWLES, AND RAINEY R. 
                                 BRANDT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

NOMINATIONS OF WALTER M. SHAUB JR. TO BE DIRECTOR, OFFICE OF GOVERNMENT 
   ETHICS; KIMBERLEY S. KNOWLES AND RAINEY R. BRANDT TO BE ASSOCIATE 
           JUDGES, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                             JULY 20, 2012


        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
76-064                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb8c9b84ab889e989f838e879bc5888486c5">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
                  Nicholas O. Trager, Staff Assistant
  Christine K. West, Counsel, Subcommittee on Oversight of Government
    Management, the Federal Workforce, and the District of Columbia
   Bryan G. Polisuk, Counsel, Subcommittee on Oversight of Government
    Management, the Federal Workforce, and the District of Columbia
               Nicholas A. Rossi, Minority Staff Director
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Akaka................................................    19

                               WITNESSES
                         Friday, July 20, 2012

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     1
Hon. James P. Moran, a Representative in Congress from the State 
  of Virginia....................................................     3
Walter M. Shaub Jr. to be Director, Office of Government Ethics:
    Testimony....................................................     5
    Prepared statement...........................................    20
    Biographical and financial information.......................    23
    Letter from the Office of Government Ethics..................    32
    Responses to pre-hearing questions...........................    33
Kimberley S. Knowles to be an Associate Judge, Superior Court of 
  the District of Columbia:
    Testimony....................................................    12
    Prepared statement...........................................    53
    Biographical and financial information.......................    54
Rainey R. Brandt to be an Associate Judge, Superior Court of the 
  District of Columbia:
    Testimony....................................................    13
    Prepared statement...........................................    70
    Biographical and financial information.......................    71
    Letters of Support...........................................    85


                  NOMINATIONS OF WALTER M. SHAUB JR.,
                       KIMBERLEY S. KNOWLES, AND
                            RAINEY R. BRANDT

                              ----------                              


                         FRIDAY, JULY 20, 2012

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:30 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order. Aloha and 
good morning to everyone. Thank you for your interest in this 
hearing. I believe this hearing will really make a difference 
for the District of Columbia.
    Today, the Committee on Homeland Security and Governmental 
Affairs meets to consider the nomination of Walter M. Shaub to 
be the Director of the U.S. Office of Government Ethics (OGE).
    On the second panel of today's hearing, we will consider 
the nominations of Rainey R. Brandt and Kimberley S. Knowles to 
be Associate Judges on the D.C. Superior Court.
    I would like to extend a warm welcome to our nominees and 
their families and their friends, and I look forward to their 
testimony today.
    Here to introduce the witnesses are two well known 
Congresspeople. We know they always have a busy schedule, so we 
certainly appreciate their presence here and their remarks 
about our nominees.
    I am glad to see and be able to introduce Congresswoman 
Norton, who always makes time to join us to introduce the D.C. 
judicial nominees. I appreciate her being here today. I am glad 
to see Representative Moran is here also.
    At this time, I would like to call Congresswoman Norton to 
please proceed with her remarks.

STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Senator Akaka.
    I want to introduce two well-qualified candidates for our 
Superior Court of the District of Columbia.
    Before I do so, may I thank you, Senator, for the work you 
have done this year that has been of great assistance to the 
District of Columbia on our Superior Court bill, our Special 
Elections bill, and most recently the Budget Autonomy bill.
    You have always been indispensable to the city and you have 
certainly shown that this year. We very much appreciate it.
    The first of the two candidates is Kimberly Knowles, who is 
now a Magistrate Judge in the D.C. Superior Court. She came to 
that post after being Deputy Chief of the Sex Offense and 
Domestic Violence Section in the Office of the U.S. Attorney 
for the District of Columbia where she served in virtually all 
of its sections--appellate, general felony, community 
prosecution, major crimes, fraud and public corruption, and sex 
offense and domestic violence, where, of course, she became 
Deputy Chief.
    She began her career in Washington by clerking for Judge 
Eric Washington, who was then an Associate Judge of the D.C. 
Superior Court, the post for which she has been recommended, 
and is now the Chief Judge of the D.C. Court of Appeals.
    She prepared at Cornell University where she got her 
Bachelor's Degree and at Howard University School of Law where 
she got her law degree.
    Senator, the second nominee is Rainey Brandt. Ms. Brandt 
has a Ph.D. in sociology with a focus on criminal justice, in 
addition to her law degree from Catholic University.
    Dr. Rainey is now Special Counsel to the Chief Judge of the 
court for which she has been recommended, Judge Lee Satterfield 
of the D.C. Superior Court; and I believe he is here today.
    She has served in this role for each of the last three 
Chief Judges of our Superior Court and she clerked for two 
judges on our Superior Court.
    She has served also as an ombudsman to the justice 
community for prisoner and correctional issues. Dr. Brandt, in 
her roles in the Superior Court, has taken leadership for a 
decade on improving access to justice and to the administration 
of justice in our city.
    Among her many achievements were two successful fugitive 
safe surrender initiatives, which significantly reduced 
outstanding warrants. For her work in the administration of 
justice, she received an award given annually, the Council for 
Court Excellence Justice Potter Stewart Award.
    Dr. Brandt continues as an Adjunct Professor in the 
Department of Justice, Law, and Society at American University, 
where she was a full-time professor before coming to the 
Superior Court.
    She has engaged in many activities that have been of great 
assistance to our residents here in the District of Columbia.
    It gives me great pleasure to strongly recommend both of 
these nominees to you, Mr. Chairman.
    Senator Akaka. Thank you very much, Congresswoman, for your 
remarks. We really do appreciate it. I want to wish you well in 
your work here. Thank you.
    Now, I am delighted to welcome Congressman Moran to this 
hearing. I know he is a busy person as well so we do appreciate 
his remarks.
    Will you please proceed, Congressman.

STATEMENT OF HON. JAMES P. MORAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Moran. Thank you very much, Mr. Chairman. It is an 
honor to testify before you, Senator Akaka, and it is a delight 
to be on the panel with my good friend Mrs. Norton, and to have 
the opportunity to introduce Walter Shaub.
    I know that Mrs. Norton and you and I have had an 
opportunity to travel around the world and observe the 
consequences of failed states and rampant corruption and how 
infectious, cancerous that can be on the entire body of the 
population.
    I know that all of us have reflected at times that 
Americans take for granted what they should be much more 
appreciative about, which is their own government, and that we 
have the most professional and the least corruptible large 
civil service in the world, and it is a civil service that 
should be highly respected and appreciated.
    Even though we read about all of them, it is, nevertheless, 
rare when we find corruption, fraud, and abuse in our Federal 
Government. But we cannot take it for granted. It may not be a 
unique feature of the American character.
    I wish it were so, but I think a lot of this is because of 
the vigilance and investment of people and resources to direct 
and oversee and demand accountability.
    The U.S. Office of Government Ethics' mission is ``to 
foster high ethical standards for Executive Branch employees 
and to strengthen the public's confidence.'' The government's 
business is conducted with impartiality and integrity, and I 
cannot think of anyone more qualified to oversee that mission 
than Walter Shaub.
    He has the experience, the integrity, and the confidence to 
fulfill the high expectations invested in the office. I will 
just briefly give you a quick summary of what he has been doing 
for just about the last 5 years.
    He has been Deputy General Counsel for the Senior Executive 
Service. He advanced the President's transition effort in 2008 
and 2009 by accomplishing the review of nearly 800 financial 
disclosure packages of candidates to appointments requiring 
Senate confirmation and senior White House staff.
    As a senior executive of the Office of Government Ethics, 
he drove the legal interpretation and policy for government 
ethics in the Federal Executive Branch.
    He coordinated with the Department of Justice's Office of 
Legal Counsel on presidential legal questions. He supported the 
Office of the Counsel to the President and the staffs of the 
Senate and House committees by providing guidance and technical 
assistance on a wide range of legal issues.
    He has negotiated a number of agreements with our staffs to 
prevent conflicts of interest. He has conducted training, 
advising agency ethics officials, supporting Inspector General 
investigations, and reviewing legal memoranda and letters for 
publication.
    He has been recognized for providing outstanding executive 
level leadership to the decentralized Executive Branch ethics 
programs.
    So, I am not going to use any more of my time other than to 
offer my heartfelt congratulations and to wish Mr. Shaub a true 
and steady course in his new responsibilities.
    I thank you for the honor of being able to testify before 
you, Senator Akaka.
    Senator Akaka. Thank you very much, Congressman Moran, for 
your service to our country and particularly the State of 
Virginia. I know you care deeply about these issues and our 
Federal workforce. I am happy that you were able to join us 
here today.
    Mr. Moran. Well, thank you for all you have done for the 
Federal workforce, incidentally. Invariably, the things that 
matter to the quality of life and the compensation of our 
Federal employees originate with you more often than not, 
Senator Akaka, and you have been kind. I want to thank you.
    Senator Akaka. Thank you. I want to wish you well in your 
continued service to the State of Virginia and this great 
country. So, thank you very much. And Congresswoman Norton, 
thank you.
    Mr. Shaub, we will be hearing from you soon. You spent most 
of your professional career in the Federal workforce, and I 
want to thank you for your service to our country.
    You have been employed for nearly 9 years at the Office of 
Government Ethics where you are currently the Deputy General 
Counsel. Prior to joining OGE, you worked as an attorney in the 
Offices of General Counsel at the Departments of Veterans' 
Affairs and Health and Human Services, and you practiced law in 
the private sector.
    So that is a quick summary of your background.
    Mr. Shaub, I understand that your wife and parents are here 
today, as well as your supporters and friends. I would like to 
give you an opportunity to acknowledge them at this time.
    Mr. Shaub. Thank you, Senator. My wife, Sheila, is sitting 
on my right.
    Senator Akaka. Welcome.
    Mr. Shaub. And my mother, JoAnn Shaub, and my father, 
Walter Shaub Sr., are next to her.
    Senator Akaka. You should be proud.
    Mr. Shaub. I am very glad they are here.
    Senator Akaka. Thank you. Aloha again and welcome. I am 
happy to see you here today in support of Mr. Shaub.
    In 1978, Congress passed the Ethics in Government Act, 
which established the Office of Government Ethics to foster 
high ethical standards and strengthen the public's confidence 
in government.
    OGE oversees Federal employee financial disclosures, trains 
thousands of Federal ethics officials governmentwide, sets 
enforceable ethics standards for employees, and reviews 
presidential nominees' financial disclosure reports.
    Mr. Shaub, this important position allows you to show the 
American people that ethical leadership begins at the top. It 
is crucial that you ensure that ethics regulations are followed 
and appropriate standards upheld.
    At its core, ethics in government requires that government 
decisions are determined by the public interest rather than any 
personal interest.
    Again, I look forward to your testimony here today. Mr. 
Shaub has filed responses to biographical and financial 
questionnaires and answered prehearing questions submitted by 
the Committee.
    Without objection, this information will be made part of 
the hearing record, with the exception of the financial 
information, which is on file and available for public 
inspection in the Committee office.
    Our Committee rules require that witnesses at nomination 
hearings give their testimony under oath. So, therefore, I ask 
you to please stand and raise your right hand.
    Do you swear that the testimony that you are about to give 
to the Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God.
    Mr. Shaub. I do.
    Senator Akaka. Thank you very much.
    Let it be noted in the record that the witness answered in 
the affirmative.
    Mr. Shaub, will you please proceed with your testimony.

 TESTIMONY OF WALTER M. SHAUB JR.\1\ TO BE DIRECTOR, OFFICE OF 
                       GOVERNMENT ETHICS

    Mr. Shaub. Chairman Akaka, I thank you for the opportunity 
to appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Shaub appears in the Appendix on 
page 20.
---------------------------------------------------------------------------
    I am deeply honored that President Obama has nominated me 
to be the Director of the Office of Government Ethics. I have 
been part of OGE's leadership team for the past 6 years. OGE is 
a small agency with the big mission of making sure the public 
can have confidence in the government's impartiality.
    I have been asked why I want to take on the responsibility 
of leading this agency. My answer is that I am committed to the 
solid ethics program that sets America apart in preserving the 
integrity of government operations.
    I am an ardent believer in OGE's mission, and I want to 
expand my contribution to public service. I am a career civil 
servant who has come up through the ranks and knows the ethics 
program. I have worked collaboratively with agency ethics 
officials. I believe I know how to build consensus among them 
to make the ethics program even stronger and more efficient 
than it is now.
    In my current and past roles at OGE, I have worked to help 
the ethics program meet the challenges of increased 
transparency, accountability, and access that Americans expect 
from their government.
    I have worked with OGE's staff and agency ethics officials 
to make government ethics not merely an aspiration but concrete 
in terms of its effect on the government.
    Every day, some part of the ethics program that OGE 
oversees is at work in every agency in the Executive Branch. It 
is ensuring that ethics is a top priority for appointees as 
they begin government service. It is ensuring that public 
servants at all levels remain free from conflicts of interest, 
and even the appearance of conflicts of interest, as they do 
their jobs.
    It is ensuring that employees who are seeking to leave the 
government remain impartial in their government work, and after 
they leave, it is ensuring that they do not have undue access 
to their former agencies on behalf of others. Above all, it is 
working to protect the public's trust in government.
    I seek to lead OGE because I believe so strongly in all of 
these things. When I come to work each day at OGE, I know I am 
supporting a mission that cuts across the government and is 
part of the very bedrock foundation of public service. If 
confirmed as Director, I would welcome the opportunity to lead 
OGE in meeting the challenges that lie ahead.
    Mr. Chairman, I thank you again for your consideration of 
my nomination.
    Senator Akaka. Thank you very much for your statement and 
your intentions as well. I will begin with the standard 
questions that this Committee asks of all nominees.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Mr. Shaub. No, there is not.
    Senator Akaka. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Shaub. No.
    Senator Akaka. Finally, do you agree, without reservation, 
to respond to any reasonable summons to appear and testify 
before any duly constituted committee of Congress if you are 
confirmed?
    Mr. Shaub. I do.
    Senator Akaka. Thank you very much for your responses.
    Mr. Shaub, please discuss how your experience in Federal 
service and in particular your time at OGE have prepared you to 
serve as director, if confirmed?
    Mr. Shaub. To begin with, I would reflect on the Federal 
employees I have worked with over the 15 years I have been in 
Federal Government, and I believe I really know these 
individuals.
    I think I have worked with them in so many different 
capacities both while I was in the private sector and in the 
public sector, and I know these are people who want to do the 
right thing and who are hard-working.
    I also know that we need a strong ethics program to help 
them make the right choices and know what the rules are. Having 
worked at OGE for nearly a decade total, I have had an 
opportunity to work with OGE in its formulation of policy, its 
interpretation of laws, and its establishment of regulations.
    I have helped provide direct assistance to agency ethics 
officials in individual cases that they found challenging and 
sought OGE's assistance with.
    I have helped develop training tools and conduct training 
to assist them in doing their jobs and even reached out 
directly to the workforce of Federal employees with training 
products and guidance documents that were directed at them 
rather than just ethics officials.
    So, I believe this is a subject matter I know but also a 
community that I understand.
    Senator Akaka. Thank you. Mr. Shaub, I believe that the 
most important role of the Office of Government Ethics is to 
maintain the public's trust, as you have mentioned, in the 
Federal Government and the government employees.
    What can be done to improve the public's perception of the 
manner in which the Federal Government serves the American 
people?
    Mr. Shaub. Reaching out to the public is something that I 
would like to do. I think we need to publicize our successes as 
well as the things that make the news because the system broke 
down in individual cases. I think that there are a great many 
times when Federal employees are doing the right thing and 
working hard, and it goes unnoticed.
    I think also we can highlight that there are consequences 
when people do break the rules, and I think if we establish a 
habit of communicating both these successes and these 
enforcement actions, we can help the public understand what it 
is OGE does as an agency but also what it is that the broader 
Federal workforce does every single day they come to work.
    Senator Akaka. Thank you very much for mentioning 
communication because it is so important to realize that very 
often people do things because they do not understand the 
rules. Federal agencies need to communicate in such a way that 
people understand what is expected.
    Mr. Shaub, please discuss what you consider to be the 
greatest challenges facing OGE, and in particular, I would like 
to hear about how you will address challenges associated with 
the recent passage of the Stop Trading on Congressional 
Knowledge (STOCK) Act.
    Mr. Shaub. The STOCK Act right now is the immediate 
challenge that has been presented to us. It was passed just 
recently on April 4 and then signed by the President.
    We have been working very hard since the enactment of that 
statute. We have issued some guidance documents that are very 
thorough and address all of the issues that we could possibly 
think of coming up in the near future. We have worked with 
agency ethics officials to help identify areas where they may 
have questions or concerns; and we have tried to make our legal 
guidance comprehensive so that they will be able to then 
understand the statute well enough to translate it to all of 
the employees who are covered by it, particularly the 28,000 
people who file public financial disclosure reports who are 
going to be covered by some new reporting requirements.
    One of the biggest challenges the Federal Government's 
ethics program faces is translating some very complex legal 
requirements for employees on the front line of work of the 
Federal Government, and I think we do a very good job of that.
    We need to focus even more on this theme of communication 
and trying to find ways to speak to the front-line employees in 
ways that they can understand because I, again, believe that 
they want to do the right thing, but they need guidance they 
can understand to do it.
    We are continuing to work on developing the additional 
guidance and the technological capacity to do the additional 
requirements of the STOCK Act involving the development of a 
financial disclosure system that will be electronic and 
available to the public online so that they can see what the 
disclosures of the government officials are.
    In terms of other challenges, we face on a cyclical basis 
the challenge of processing presidential nominee reports, which 
involve the most senior level officials in the Federal 
Government, and it is just a simple matter of risk management.
    It is very important that we commit our resources to make 
sure that these individuals who have the most authority and 
power and responsibility in the government are acting ethically 
and we have resolved their conflicts of interest going into the 
job before they even begin.
    That job, in terms of the volume of work, increases every 
time there is an election, regardless of who wins. And so, we 
are gearing up to be able to handle an increased volume in the 
near future.
    We also face the same challenge that the Federal Government 
as a whole faces, which is succession planning as more and more 
of the workforce in the Federal Government is reaching 
retirement age.
    That affects the ethics program in the sense that ethics 
officials are going to be retiring and we have to have a 
workforce of trained ethics officials who can replace them and 
truly understand the laws and to capture as much institutional 
knowledge from the senior knowledgeable ethics officials who 
are going to be leaving.
    But it also affects us in terms of working with the Federal 
workforce that will soon see significant turnover, and we have 
to again communicate the ethics rules in terms that these new 
employees will be able to understand, as well.
    Senator Akaka. Well, thank you very much for that response. 
As you know, we have many different types of Federal workers, 
including those who are overseas; and sometimes those who are 
overseas wonder where they are within the system. But that is 
another kind of challenge.
    Mr. Shaub, as you know, the STOCK Act requires OGE to allow 
the general public to search Federal employees' financial 
disclosure reports online via an electronic filing system by 
October 2013.
    Recently, we have heard concerns that criminals and foreign 
intelligence services could take advantage of this information 
for other purposes. This may be a particular worry for Federal 
officials working in dangerous countries.
    What are your views on these concerns and do you believe 
Congress should consider modifying this requirement?
    Mr. Shaub. In the immediate term while we are working with 
the STOCK Act as drafted, we have been looking for ways to 
comply literally with the law and with the spirit of the law as 
well and to implement it fully, and at the same time we have 
been hearing these concerns, and we are listening to them. They 
are coming from a very broad range of Federal employee groups 
and outside groups who are concerned about this issue that the 
privacy of these individuals has been limited and information 
revealed on the Internet so that anybody can see it on a much 
larger scale than ever before.
    These have always been public reports, but it is an issue 
of magnitude. They are now going to be on the Internet broadly, 
and typically lower-level officials' reports do not actually 
get requested.
    Now they will be so freely available that there is thought 
that some people will be viewing them. The concern that we have 
been hearing is anything from identity theft to embarrassment 
to people fearing for the safety of their children to the 
extent that it reveals where they are at any point if they have 
certain assets that disclose things that would lead you to 
conclude where they are. But also overseas, we have been 
hearing serious concerns about safety.
    I know from international meetings that we have had that 
there are countries out there who are very concerned about even 
having public financial disclosure at all because of the 
conditions where they are, and we have employees who are over 
there in those countries.
    So, we do take that very seriously, and we are studying all 
of our authorities to see how we can comply with the law and 
also provide some basic protections for the employees whose 
forms are being accessed.
    If the STOCK Act were changed to provide additional 
protections for these employees, I would definitely be in favor 
of that revision because I think we can strike a balance 
between privacy and safety and make things publicly available 
enough to help the public understand the financial motivations 
and interests of its leaders.
    Senator Akaka. Well, thank you very much. I was happy to 
see in your answers to the Committee's pre-hearing questions 
that one of your priorities, if confirmed, will be to increase 
OGE's direct engagement with the agencies, particularly those 
overseas.
    I would like to hear more about how you intend to 
accomplish this and why you believe that a greater level of 
engagement would improve agency ethics programs governmentwide.
    Mr. Shaub. I think that it is very important that the 
Federal Government has a decentralized ethics program, and this 
was a very well thought-out decision by Congress way back in 
1978, as you mentioned, at the beginning of the current ethics 
program.
    This enables agency ethics officials to really understand 
the operations of their agency, know their missions, and 
actually know what is really going on out at those agencies.
    A check on each agency operating completely independently, 
though, is the Office of Government Ethics, which exists partly 
to provide uniformity to the ethics program and a consistent 
level of quality.
    I do not think we can achieve that if we are not spending 
time with these agency ethics officials and really 
understanding the challenges that they face, the issues that 
they face and maybe identifying areas where they are confused 
or their procedures could be improved if we have not made the 
issues clear enough to them with our legal analysis.
    I think that by targeting agency ethics officials for 
increased numbers of meetings and forming working groups on 
issues, we can roll up our sleeves and actually work together 
on things, some of which we have begun doing more recently, and 
I would like to continue in that direction.
    Along the same lines, I feel that if we make an appearance 
by interacting with the leadership of the agencies and helping 
agency ethics officials forge connections where they can have 
access to the leadership and make sure that their concerns are 
being listened to and maybe they are involved even before 
decisions are made to prevent conflicts of interest in advance, 
we can achieve an effect far broader than if we simply targeted 
only individual employees.
    That being said, I think we also have to have some 
interaction with the individual employees by creating training 
products that they can use. An example of that is, we created a 
6-minute video in July for the 28,000 public filers to help 
them understand the new requirements of the 30-day transaction 
reports under the STOCK Act.
    Senator Akaka. Well, thank you very much.
    We have discussed a number of issues here today, and it is 
clear from your answers that this is a subject that you care 
about very deeply.
    I would like to know what you hope your legacy will be 
after your service as the OGE director? Stated a little 
differently, what is it that you would like people to remember 
about your tenure as the Director?
    Mr. Shaub. The end result that I would like to achieve is 
an increased awareness and appreciation of an ethnical culture 
in all of the agencies, which is always difficult to measure 
but I think we can look at the concrete aspects of agency 
programs and the qualitative analysis of their commitment to 
ethics and the types of things they have done in support of 
ethics.
    On a personal level, if I am confirmed, I would like to be 
remembered as somebody who is deeply and personally engaged 
with the agencies in their work and not standing separate as an 
independent force just identifying legal issues and analyzing 
them in a vacuum without working closely with the ethics 
community.
    I think the ethics community right now is comprised of some 
absolutely fantastic individuals who do incredible work on a 
daily basis and really have made a strong impact on their 
agencies, and by working very closely with them, I am hoping I 
can even increase their impact on their agencies in building an 
ethical culture.
    Senator Akaka. Thank you for reflecting on that.
    Let me add that things have changed. When you look back at 
the laws and administrative policies, some of them are 
outdated. We need to update them as we go along.
    This Committee would appreciate any recommendations about 
what can be done to help you make sure that the rules are more 
understandable and clear. Large-scale reforms would require a 
huge effort, but we need to think about it.
    I want to thank you for your testimony and your responses, 
Mr. Shaub.
    At this time, I have no further questions. The hearing 
record will remain open until the close of business on Monday, 
July 23, for Members of this Committee to submit additional 
statements or questions. Any additional questions will be 
submitted to you in writing.
    So again, I thank you very much for being here today and 
for helping us know you better. I hope we can work rapidly on 
your confirmation.
    Mr. Shaub. Thank you, Chairman Akaka.
    Senator Akaka. Thank you very much and thank you for having 
your family here with us.
    I want to welcome the second panel of today's hearing. We 
will consider the nominations of Rainey Brandt and Kimberley 
Knowles to be Associate Judges of the District of Columbia 
Superior Court.
    The Committee consistently receives excellent judicial 
candidates, nominated by the President from those recommended 
by the nonpartisan Judicial Nomination Commission.
    Judge Knowles is a Magistrate Judge at D.C. Superior Court. 
Before that, she spent a number of years as an Assistant U.S. 
Attorney.
    Ms. Brandt is Special Counsel to the Chief Judge of D.C. 
Superior Court, a position she has held since 1998. She also is 
an adjunct professor at American University.
    I want to note that the Committee received letters of 
support for Ms. Brandt's nomination from the following D.C. 
Superior Court judges:
    Chief Judge Lee Satterfield, Retired Chief Judge Rufus 
King, Senior Judge Stephanie Duncan-Peters, Associate Judge 
Anthony Epstein, and Associate Judge Lynn Leibovitz.
    Letters of support were also submitted by the D.C. Court of 
Appeals Associate Judge Anna Blackburne-Rigsby, John Clark, 
Kenneth Wainstein, Bradley Weinsheimer, and the Bar Association 
of the District of Columbia.
    Each of these letters will be included in the hearing 
record.\1\
---------------------------------------------------------------------------
    \1\ The letters of support for Ms. Brandt appear in the Appendix on 
page 85.
---------------------------------------------------------------------------
    I believe the nominees have much to offer to the D.C. 
Superior Court and, if confirmed, will join others who have 
appeared before us in making valuable contributions to the 
District's judicial system.
    Judge Knowles, I understand that this hearing conflicts 
with your family's vacation so they could not be here with us 
today. Although they are not here, I would like to give you an 
opportunity to acknowledge them and your friends if you would 
like to do so.
    Ms. Knowles. Thank you, Mr. Chairman.
    My family is watching from Disney World, but I am happy to 
be here and to interrupt my vacation for this purpose.
    I have a number of colleagues from D.C. Superior Court and 
former colleagues from the U.S. Attorney's Office, as well as 
friends who are here acting as my family today. Thank you.
    Senator Akaka. Thank you. Well, give my Aloha to the 
family. Ms. Brandt you have family and friends here as well. I 
would like to give you an opportunity to introduce them. So, 
please feel free to do so at this time.
    Ms. Brandt. Thank you, Senator.
    I am proud to have my mother, Eloise Ransom, here. My 
husband, Deputy Chief U.S. Marshal Robert Brandt; and my 
sister, Nona Ann Ransom, who we all affectionately call 
Cricket.
    There are also a number of Superior Court judges here to 
support my nomination, too many to name, but I would like to 
take this opportunity to acknowledge Chief Judge Lee 
Satterfield; former Chief Judge Rufus King; Judge Russell 
Canan, who is the present Presiding Judge of the Criminal 
Division; Judge Melvin Wright, who is the current presiding 
judge of the Civil Division; and Judge Stephanie Duncan-Peters, 
who is the former Presiding Judge of the Civil Division.
    Also there are a number of friends, former students, and 
colleagues from the Department of Justice and American 
University here, among them U.S. Marshal for the District of 
Columbia Superior Court Michael Hughes and Assistant D.C. Chief 
of Police Michael Anzallo.
    I am grateful for all the support, guidance, and love that 
they have given me. Thank you.
    Senator Akaka. Thank you very much and I want to welcome 
your family as well, especially your mother. We are always glad 
to see the loved ones as well as the supporters who are here.
    Each nominee has filed responses to a biographical and 
financial questionnaire submitted by the Committee. So, without 
objection, this information will be made a part of the hearing 
record, with the exception of financial data, which will be 
kept on file and made available for public inspection in the 
Committee office.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath.
    So, will you please at this time stand and raise your right 
hand.
    Do you swear that the testimony you are about to give the 
Committee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Knowles. I do.
    Ms. Brandt. I do.
    Senator Akaka. Thank you. Please note in the record that 
the witnesses answered in the affirmative.
    Judge Knowles, will you please proceed with your statement.

TESTIMONY OF KIMBERLEY S. KNOWLES \1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Knowles. Mr. Chairman and Members of the Committee, I 
am grateful for and honored by the opportunity to appear before 
you today as a nominee to be an Associate Judge of the Superior 
Court of the District of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Knowles appears in the Appendix 
on page 53.
---------------------------------------------------------------------------
    I would like to thank the District of Columbia Judicial 
Nomination Commission, chaired by the Hon. Emmet G. Sullivan, 
for recommending me to the White House, and I am also thankful 
to President Barack Obama for his nomination for this position.
    I would also like to thank Congresswoman Norton for taking 
the time to introduce me at this hearing today. I also am 
appreciative of this Committee for considering my nomination so 
expeditiously.
    Unfortunately, as I noted earlier, my family is unable to 
attend today's hearing, as they are away on a vacation, and I 
will rejoin them immediately after this hearing. They are my 
greatest supporters, and I would like to acknowledge them: My 
son, Cameron Knowles; my brothers, Alex and Nigel Knowles; my 
sister-in-law, Arlene Knowles; and my nephews, Devin and Sean 
Knowles.
    I would also like to recognize my late parents, Philmore 
and Ita Knowles, whose hard work and many sacrifices put me in 
a position to be able to sit before you today.
    I also wish to acknowledge Chief Judge Eric T. Washington 
of the District of Columbia Court of Appeals and Chief Judge 
Lee F. Satterfield of the District of Columbia Superior Court 
for their leadership, guidance, and support.
    Finally, I would like to thank my many friends and current 
and former colleagues who have supported me over the years, 
some of whom are present today.
    I was born and raised in Bronx, New York. I moved to 
Washington, DC, to attend Howard University School of Law and 
never left because I fell in love with the city and the 
community.
    My entire legal career has been dedicated to serving the 
District of Columbia community--first as a judicial law clerk 
in the D.C. Superior Court; then for 12\1/2\ years in the U.S. 
Attorney's Office for the District of Columbia; and now as a 
Magistrate Judge in the D.C. Superior Court.
    I hope to continue my service to the District of Columbia 
as an Associate Judge of the D.C. Superior Court. I am honored 
to be considered for this esteemed position, especially in the 
court where I have practiced my entire career.
    I thank you for your consideration of my nomination, and I 
look forward to answering your questions. Thank you.
    Senator Akaka. Thank you very much, Ms. Knowles, for your 
statement.
    Ms. Brandt, will you please proceed with your statement.

  TESTIMONY OF RAINEY R. BRANDT \1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Brandt. Thank you. Mr. Chairman and Members of the 
Committee, thank you for the opportunity to appear here today 
at this confirmation hearing for my nomination to be an 
Associate Judge of the Superior Court of the District of 
Columbia. It is indeed an honor and a privilege.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Brandt appears in the Appendix on 
page 70.
---------------------------------------------------------------------------
    I would like to thank the Judicial Nomination Commission, 
particularly its chair, Judge Emmet Sullivan, for recommending 
me to the White House and President Barack Obama for nominating 
me.
    I also wish to express my appreciation to the Committee 
Members and staff who have been most courteous and professional 
throughout this process.
    Finally, special thanks to Congresswoman Eleanor Holmes 
Norton for taking the time out of her busy schedule to 
introduce me.
    My entire career has been devoted to public service, the 
law, and improving the administration of justice. It began 21 
years ago as a professor teaching justice and law to the 
students of American University where I have taught ever since. 
It is one of my great satisfactions in life that my students 
still reach out to let me know how my classes inspired them to 
enter public service and make a difference.
    As a judge, I hope to continue to be a role model for 
others while ensuring that the rights of all who come before me 
are respected and protected.
    For 14 years at the D.C. Superior Court as Special Counsel 
to the Chief Judge, I have provided counsel, advice, and 
training to nearly all of our judges and countless attorneys on 
a broad range of legal issues from bond reviews to trial 
logistics to sentencing options.
    My job puts me in day-to-day contact with judges seeking my 
advice on how to work through practical realities facing them 
in the courtroom from issues of substantive law, to procedural 
issues, to managing challenging and unexpected courtroom 
situations.
    I have also worked diligently within the Court to make sure 
that its processes and rules are fair and understandable for 
those persons who appear before the court: Lawyers and their 
parties, self-represented persons, the accused, victims, and 
their families.
    I believe that my hard work, creativity, and commitment to 
the Court, along with that of so many of my dedicated 
colleagues, have helped to improve access to justice for all 
who come to the court daily seeking to be heard and to solve 
the difficulties that brought them to us.
    I have been fortunate to experience the justice system from 
a variety of perspectives, and if confirmed, I will bring those 
skills and experience to the bench in order to continue 
furthering the court's mission of being open to all, and 
trusted by all, while providing justice for all. Thank you.
    I will be pleased to respond to any questions you or other 
Committee Members might have.
    Senator Akaka. Thank you very much, Ms. Brandt.
    I will begin with the standard questions that this 
Committee asks of all nominees. I would like both of you to 
answer each question.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated?
    Ms. Knowles. No, Mr. Chairman.
    Ms. Brandt. No, Mr. Chairman.
    Senator Akaka. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Knowles. No, Mr. Chairman.
    Ms. Brandt. No, Mr. Chairman.
    Senator Akaka. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress if you are confirmed?
    Ms. Knowles. Yes, Mr. Chairman.
    Ms. Brandt. Yes, Mr. Chairman.
    Senator Akaka. Thank you very much for those answers.
    I commend both of you for making a decision to continue 
public service to District residents. Please elaborate on why 
you are seeking appointment to become an Associate Judge at 
this point in your career?
    Judge Knowles, I would like for you to begin, followed by 
Ms. Brandt.
    Ms. Knowles. Thank you, Mr. Chairman.
    Well, I decided very early in my legal career that public 
interest and public service was what was best for me.
    I realized that waking up in the morning to go to work I 
needed to feel like I was going to be affecting and helping 
somebody whether they knew that I was helping them or not.
    The other strong interest that I have always had has been 
in the courtroom and trial work. I decided that a very long 
time ago before I even went to law school, before I went to 
college.
    So, combining those two things, that is the reason why I 
went to the U.S. Attorney's Office to be able to be in the 
courtroom, to see trial work, and to serve the public. That is 
why I spent 12\1/2\ years at the U.S. Attorney's Office. That 
is also why I sought a position as a Magistrate Judge.
    I believe that seeking a position now as an Associate Judge 
will allow me to continue my public service, continue my love 
of being in the courtroom and the trial work, but give me more 
variety.
    As a Magistrate Judge, there is a limited jurisdiction. 
Associate Judges have an opportunity to handle many more cases, 
more issues; and so, that would expand my horizons while still 
meeting the needs that I have by waking up every morning and 
serving the public.
    Senator Akaka. Thank you. Ms. Brandt.
    Ms. Brandt. Thank you for the question, Senator.
    For me, the answer is quite simple. My whole life has been 
dedicated to public service, and joining the bench as a judge 
would simply allow me to continue providing service to the 
public. A judge gets to play a different role in public 
service, protecting the public, vulnerable children, and 
victims.
    So, it would be a great way for me to remain at D.C. 
Superior Court and continue the public service that I have 
given to that court and its citizens over the past 14 years.
    Senator Akaka. Thank you very much.
    Ms. Brandt, although you have spent your entire legal 
career at the D.C. Superior Court and no doubt understand its 
rules and procedures very well, some may have concerns that you 
do not have litigation experience.
    Please discuss how your knowledge and experience qualify 
you to be an Associate Judge.
    Ms. Brandt. Thank you for the question, Senator Akaka.
    For the past 14 years, I have advised, counseled, and 
trained judges in my current position as Special Counsel to the 
Chief Judge. Daily, judges come to me seeking advice and 
counsel on how to handle a variety of issues at a fast pace.
    My years of experience at the court and exposure have 
allowed me to do a number of things that have put me in a good 
position to understand up close and personal what the job of a 
judge actually entails.
    It should be noted that I have, in my capacity at the 
courthouse, trained over 100 judges and magistrate judges 
during that time on both practical situations and substantive 
law.
    Additionally, the 21 years that I have spent teaching law 
at American University have given me the foundation from which 
I have been able to educate others.
    On a personal note, because my job at D.C. Superior Court 
is a unique one, I can understand that the title, Special 
Counsel to the Chief Judge, does not necessarily say what all I 
do every day. But, on a personal level, the support that I have 
from the number of judges who are here and the ones who are 
back at the court dealing with the everyday press of business 
means the world to me because those judges know what I do on a 
daily basis and can speak as well as I can to the types of 
issues that make me qualified to be an Associate Judge at D.C. 
Superior Court.
    I could go on and on, but I will stop rambling now.
    Senator Akaka. Thank you.
    Judge Knowles, you have extensive criminal law experience 
as an attorney and Magistrate Judge. If confirmed, you may 
preside over cases arising under many different areas of the 
law.
    How has your career prepared you to handle the wide range 
of legal issues you will confront?
    Ms. Knowles. Thank you, Mr. Chairman.
    It is accurate that I have spent most of my career working 
on criminal law issues. However, I have done many different 
things within criminal law.
    I primarily worked in sex offense and domestic violence, 
but I prosecuted narcotics offenses. I did fraud and public 
corruption. I did a number of different kinds of cases.
    Currently, in my position now, I am handling traffic 
matters, which I have never done before. Although it is 
criminal, it is different.
    And so, the way that I envision being prepared for any 
other assignment, for example in civil or in family law, if I 
am confirmed and then assigned to those divisions, is to 
immerse myself in the law, which is what I learn how to do as a 
prosecutor.
    As I told many attorneys who I supervised, when in doubt, 
refer to the law. So, I will read the law. I will study. I will 
research the case law and get a fundamental knowledge.
    Also, I am lucky to be at the D.C. Superior Court where 
they have an excellent training committee, so I will consult 
with the training committee, and I am sure I would get base 
knowledge from the training committee. And then, there is a 
wealth of knowledge through all of the judges who are already 
on the court.
    So, as a prosecutor, I learned you have to find the answer, 
and I am not afraid of the fact that I do not know all of the 
answers as long as I am willing to find the answer, which is 
what I learned how to do as a prosecutor. Thank you.
    Senator Akaka. Thank you, very much.
    Ms. Brandt, as a judge, you may have litigants appear 
before you who do not have attorneys and may not fully 
understand the law and procedure.
    What do you believe the proper role is for a judge in 
helping litigants access information they may need to present 
their cases?
    Ms. Brandt. Thank you for the question, Senator Akaka.
    I would like to start by saying in January of this year, 
our Canons of Judicial Ethics were revised to address just this 
issue in specificity whereby now the judges have a 
responsibility of making sure that people who come before them 
who are self-represented have reasonable access and 
understanding of the process.
    And, to that end, while the Canon dictates and gives a 
number of examples from which a judge can use to make sure that 
a person clearly understands the procedures, I believe it is 
also incumbent on a judge to make sure that he or she speaks 
effectively, looks the individual in the eye, and explains the 
entire process, no matter how small a detail is, to that 
individual so that he or she has full understanding of what is 
happening and how it will affect him or her.
    Senator Akaka. Thank you.
    Judge Knowles, as you know from your time at the D.C. 
Superior Court, judges must often handle heavy caseloads. 
Please describe how you would balance the need to move 
efficiently through cases while ensuring that all cases receive 
thoughtful consideration.
    Ms. Knowles. Well, I am lucky in that I am in the unique 
position where I handle that now. I have a large case load each 
day, and some days I handle issues that take a little bit more 
time.
    If confirmed as an Associate Judge, I would endeavor to 
handle each case one at a time. When I realize there is an 
issue that has come up in a case that may need a little bit 
more time, that I need the time to research, I will take the 
time to tell the parties I need them to come back later in the 
afternoon, but not rush the case because that will not be good 
for anybody's case.
    So, I think it is a great challenge that all judges have 
whether they are seasoned judges or new judges. It is a great 
challenge to have to balance looking at the cases and taking 
the time to spend on all the issues.
    First, is moving a crowded docket, but I think it just has 
to be done. I cannot articulate how that is done. It is a 
matter of going case by case, and when there is an issue that 
has to be looked at, if there is an issue that I do not know 
the answer to, it is taking the moment to say, I have to pass 
this case, and looking at the issue.
    So, not rushing through the case because that is not fair 
to the litigants. It is not fair to the other litigants and 
parties who are sitting in the courtroom.
    So, taking the time that I need is what I would do.
    Senator Akaka. Thank you.
    What do you think is the biggest challenge you will have in 
becoming an Associate Judge and how do you plan to address that 
challenge?
    Ms. Brandt, I would like you to answer first, followed by 
Judge Knowles.
    Ms. Brandt. Thank you very much, Senator Akaka, for that 
question.
    For me, that is a two-fold answer. The first is that I will 
have to learn how to let go of the current responsibilities 
associated with my current role so that I can focus on the 
responsibilities that come with being a judge.
    Unlike other nominees who are coming to the bench from 
outside agencies, I will remain in close proximity with people 
to whom I have provided advice and assistance for many years.
    The second thing that comes to mind is the fact that there 
are certain areas of the law that I am less familiar with than 
others. While I have a significant foundation in criminal law, 
matters dealing with civil and family court are less familiar 
to me.
    So, like any new judge who moves into a new division, along 
with reading and learning the law, I will take part in the 
judicial training program, which is rigorous and focused on 
getting judges very familiar with the areas of the law that 
they might be less familiar with.
    So, a combination of those two things. That hopefully 
addresses your question. Thank you.
    Senator Akaka. Thank you. Judge Knowles.
    Ms. Knowles. Thank you, Mr. Chairman.
    I think I started to answer that question in my last 
response. One of the great challenges I think is, in fact, 
balancing the need to move a heavy docket and caseload and 
giving each case or issue the time that it deserves.
    I think also another important issue and challenge will be 
being an efficient Associate Judge, if, in fact, I am 
confirmed.
    I want to be respectful. I would want to be respectful of 
everyone's time--the litigants, attorneys, parties, and court 
personnel--understanding that there are, on a daily basis, 
pleadings, requests, and administrative procedures that are 
presented to a judge each day in chambers, and that means that 
there are attorneys, parties, and court personnel who are all 
waiting for that decision so that they can progress with 
whatever it is they need to do.
    And so, I want to learn to balance all of those things so 
that I can keep the process moving. There is a lot that has to 
happen for the court house to work efficiently. So, making sure 
that I am efficient so that everybody else can continue on and 
being respectful of everybody's time and efforts is something 
that I think will also be a challenge but one that I believe 
that I can meet. Thank you.
    Senator Akaka. Thank you. I want to thank you both for your 
testimonies. There are no further questions from me at this 
time. I want to thank all of our witnesses for appearing before 
the Committee today.
    The hearing record will remain open until the close of 
business Monday, July 23, for Members of this Committee to 
submit additional statements or questions. Any additional 
questions will be submitted to the appropriate nominee in 
writing.
    I also want to thank Congressman Moran and Congresswoman 
Norton for taking their time to be with us this morning and 
adding to the record of our witnesses.
    It is my hope that the Senate can act quickly to confirm 
all three of the nominees we have heard today.
    This hearing is adjourned.
    [Whereupon, at 11:40 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6064.001

[GRAPHIC] [TIFF OMITTED] T6064.002

[GRAPHIC] [TIFF OMITTED] T6064.003

[GRAPHIC] [TIFF OMITTED] T6064.004

[GRAPHIC] [TIFF OMITTED] T6064.005

[GRAPHIC] [TIFF OMITTED] T6064.006

[GRAPHIC] [TIFF OMITTED] T6064.007

[GRAPHIC] [TIFF OMITTED] T6064.008

[GRAPHIC] [TIFF OMITTED] T6064.009

[GRAPHIC] [TIFF OMITTED] T6064.010

[GRAPHIC] [TIFF OMITTED] T6064.011

[GRAPHIC] [TIFF OMITTED] T6064.012

[GRAPHIC] [TIFF OMITTED] T6064.013

[GRAPHIC] [TIFF OMITTED] T6064.034

[GRAPHIC] [TIFF OMITTED] T6064.014

[GRAPHIC] [TIFF OMITTED] T6064.015

[GRAPHIC] [TIFF OMITTED] T6064.016

[GRAPHIC] [TIFF OMITTED] T6064.017

[GRAPHIC] [TIFF OMITTED] T6064.018

[GRAPHIC] [TIFF OMITTED] T6064.019

[GRAPHIC] [TIFF OMITTED] T6064.020

[GRAPHIC] [TIFF OMITTED] T6064.021

[GRAPHIC] [TIFF OMITTED] T6064.022

[GRAPHIC] [TIFF OMITTED] T6064.023

[GRAPHIC] [TIFF OMITTED] T6064.024

[GRAPHIC] [TIFF OMITTED] T6064.025

[GRAPHIC] [TIFF OMITTED] T6064.026

[GRAPHIC] [TIFF OMITTED] T6064.027

[GRAPHIC] [TIFF OMITTED] T6064.028

[GRAPHIC] [TIFF OMITTED] T6064.029

[GRAPHIC] [TIFF OMITTED] T6064.030

[GRAPHIC] [TIFF OMITTED] T6064.031

[GRAPHIC] [TIFF OMITTED] T6064.032

[GRAPHIC] [TIFF OMITTED] T6064.033

[GRAPHIC] [TIFF OMITTED] T6064.035

[GRAPHIC] [TIFF OMITTED] T6064.036

[GRAPHIC] [TIFF OMITTED] T6064.037

[GRAPHIC] [TIFF OMITTED] T6064.038

[GRAPHIC] [TIFF OMITTED] T6064.039

[GRAPHIC] [TIFF OMITTED] T6064.040

[GRAPHIC] [TIFF OMITTED] T6064.041

[GRAPHIC] [TIFF OMITTED] T6064.042

[GRAPHIC] [TIFF OMITTED] T6064.043

[GRAPHIC] [TIFF OMITTED] T6064.044

[GRAPHIC] [TIFF OMITTED] T6064.045

[GRAPHIC] [TIFF OMITTED] T6064.046

[GRAPHIC] [TIFF OMITTED] T6064.047

[GRAPHIC] [TIFF OMITTED] T6064.048

[GRAPHIC] [TIFF OMITTED] T6064.049

[GRAPHIC] [TIFF OMITTED] T6064.050

[GRAPHIC] [TIFF OMITTED] T6064.051

[GRAPHIC] [TIFF OMITTED] T6064.052

[GRAPHIC] [TIFF OMITTED] T6064.053

[GRAPHIC] [TIFF OMITTED] T6064.054

[GRAPHIC] [TIFF OMITTED] T6064.055

[GRAPHIC] [TIFF OMITTED] T6064.056

[GRAPHIC] [TIFF OMITTED] T6064.057

[GRAPHIC] [TIFF OMITTED] T6064.058

[GRAPHIC] [TIFF OMITTED] T6064.059

[GRAPHIC] [TIFF OMITTED] T6064.060

[GRAPHIC] [TIFF OMITTED] T6064.061

[GRAPHIC] [TIFF OMITTED] T6064.062

[GRAPHIC] [TIFF OMITTED] T6064.063

[GRAPHIC] [TIFF OMITTED] T6064.064

[GRAPHIC] [TIFF OMITTED] T6064.065

[GRAPHIC] [TIFF OMITTED] T6064.066

[GRAPHIC] [TIFF OMITTED] T6064.067

[GRAPHIC] [TIFF OMITTED] T6064.068

[GRAPHIC] [TIFF OMITTED] T6064.069

[GRAPHIC] [TIFF OMITTED] T6064.070

[GRAPHIC] [TIFF OMITTED] T6064.071

[GRAPHIC] [TIFF OMITTED] T6064.072

[GRAPHIC] [TIFF OMITTED] T6064.073

[GRAPHIC] [TIFF OMITTED] T6064.074

[GRAPHIC] [TIFF OMITTED] T6064.075

[GRAPHIC] [TIFF OMITTED] T6064.076

[GRAPHIC] [TIFF OMITTED] T6064.077

[GRAPHIC] [TIFF OMITTED] T6064.078

[GRAPHIC] [TIFF OMITTED] T6064.079

[GRAPHIC] [TIFF OMITTED] T6064.080

[GRAPHIC] [TIFF OMITTED] T6064.081

[GRAPHIC] [TIFF OMITTED] T6064.082

[GRAPHIC] [TIFF OMITTED] T6064.083

[GRAPHIC] [TIFF OMITTED] T6064.084

[GRAPHIC] [TIFF OMITTED] T6064.085

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
